<html>
<title> - UNITED NATIONS CHAPTER VII MANDATES AND THE U.S.-IRAQ BILATERAL AGREEMENT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



    UNITED NATIONS CHAPTER VII MANDATES AND THE U.S.-IRAQ BILATERAL 
                               AGREEMENT

=======================================================================

                                HEARING

                               BEFORE THE

SUBCOMMITTEE ON INTERNATIONAL ORGANIZATIONS, HUMAN RIGHTS AND OVERSIGHT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 17, 2009

                               __________

                           Serial No. 111-60

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
52-289PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                      COMMITTEE ON FOREIGN AFFAIRS


                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

              Subcommittee on International Organizations,
                       Human Rights and Oversight

                 BILL DELAHUNT, Massachusetts, Chairman
RUSS CARNAHAN, Missouri              DANA ROHRABACHER, California
KEITH ELLISON, Minnesota             RON PAUL, Texas
DONALD M. PAYNE, New Jersey          TED POE, Texas
ROBERT WEXLER, Florida
             Cliff Stammerman, Subcommittee Staff Director
          Paul Berkowitz, Republican Professional Staff Member
                      Brian Forni, Staff Associate







                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Michael J. Matheson, Esq., Visiting Research Professor of Law, 
  The George Washington University Law School....................     6
Kenneth Katzman, Ph.D., Specialist in Middle East Affairs, 
  Congressional Research Service.................................    18
Stephen G. Rademaker, Esq., Senior Counsel, BGR Group (former 
  Assistant Secretary of State for International Security and 
  Nonproliferation)..............................................    32

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Michael J. Matheson, Esq.: Prepared statement....................     9
Kenneth Katzman, Ph.D.: Prepared statement.......................    22
Stephen G. Rademaker, Esq.: Prepared statement...................    35

                                APPENDIX

Hearing notice...................................................    50
Hearing minutes..................................................    51

 
    UNITED NATIONS CHAPTER VII MANDATES AND THE U.S.-IRAQ BILATERAL 
                               AGREEMENT

                              ----------                              


                      THURSDAY, SEPTEMBER 17, 2009

              House of Representatives,    
   Subcommittee on International Organizations,    
                            Human Rights and Oversight,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:09 a.m. in 
room 2172, Rayburn House Office Building, Hon. Bill Delahunt 
(chairman of the subcommittee) presiding.
    Mr. Delahunt. The hearing will come to order. Recently I 
noted that my friend and colleague from Massachusetts who 
chairs the Senate Foreign Relations Committee--that is 
obviously Senator John Kerry--noted that Iraq had become the 
forgotten war.
    Well, I agree. Iraq no longer commands daily headlines and 
here in Congress the debate now focuses on health care reform 
and there are multiple briefings and hearings on Afghanistan, 
but just because something is forgotten does not mean that it 
has gone away.
    As former Secretary of State Colin Powell warned former 
President George W. Bush before the invasion of Iraq, you break 
it, you own it. He was right. This hearing is about the status 
of that ownership, our responsibility, if you will.
    In December of last year, the United States and Iraq signed 
an agreement that is commonly known as the Status of Forces 
Agreement or SOFA being the acronym. I refer to it simply as 
the U.S.-Iraq Bilateral Agreement because it was much more, in 
my opinion, than a typical SOFA. This subcommittee had held a 
number of hearings as it was being negotiated, and I believe 
that those hearings influenced and improved the ultimate 
agreement that was signed by Prime Minister Maliki and 
President Bush.
    I continue to have concerns about it, however, and one of 
those concerns is the subject of today's hearing. One purpose 
of the bilateral agreement was to replace the United Nations 
Security Council mandate for United States troops and other 
international forces in Iraq. This mandate was what is known as 
a Chapter VII mandate.
    Chapter VII of the U.N. charter concerns, and I am quoting, 
``action with respect to threats to peace, breaches of the 
peace and acts of aggression.'' In effect, a Chapter VII 
mandate means that the international community via the Security 
Council has passed legally binding resolutions regarding the 
particular country irrespective of what that country's people 
or government might wish.
    Now, the U.S.-Iraq Bilateral Agreement effectively ended 
the Chapter VII mandate regarding international forces in Iraq. 
This was welcomed in Iraq as an acknowledgement of its 
sovereignty and national dignity. After all, a Chapter VII 
mandate essentially says that you are a ward of the 
international community, that you are not capable or 
trustworthy enough to run your own country, and for anyone, but 
especially a people as proud as the Iraqi people, this is 
profoundly insulting.
    However, a number of other Chapter VII mandates still 
remain in force regarding Iraq. Most of them stem from the 
Saddam Hussein era. Article 25 of the bilateral agreement 
committed the United States to working with Iraq to address 
these remaining Chapter VII mandates and restoring Iraq to full 
sovereignty in the family of nations.
    Unfortunately, this is not as easy as it sounds. These 
mandates cover a range of issues from border disputes to 
compensation claims, from the first Gulf War to the bank 
account which protects Iraq's oil revenue from lawsuits to now 
obsolete provisions regarding weapons of mass destruction. 
Depending on how they are defined, there are almost 20 
different mandates. Many of them require Iraq to take certain 
steps, some of which they have not accomplished, for them to be 
eliminated.
    Each of these mandates must be discussed, debated and voted 
on in the Security Council, and the reality of the Security 
Council is that Russia, China, France and the United Kingdom, 
as well as the United States, can veto any resolution for any 
reason. Thus, it is clear that this will require the 
expenditure of considerable political capital by the United 
States at the United Nations.
    Some might say that we have enough on our plate. It is time 
to move forward and address other pressing issues. But let me 
suggest that we have given our word in a formal document and, 
as Secretary Powell observed, we have a moral obligation to the 
people of Iraq, and that simply cannot be denied.
    I would also especially note, and I think this is 
particularly important, that while it might be off the front 
page in many ways, Iraq, its stability and its potential 
prosperity are essential in the Middle East and the entire 
region, and a stable Middle East is essential to our national 
security as well as world peace. So Iraq is as important as 
ever, albeit it may be forgotten by some.
    So this hearing is an effort to find out what needs to be 
done to terminate these mandates. What are the mandates under 
discussion? What is the process for eliminating them? What do 
the Iraqis have to do to help us help them? How does this 
affect Iraq's internal politics and its relations with its 
neighbors? What are the prospects for a possible referendum in 
January if we do not eliminate at least some of these mandates? 
What are the implications for American forces remaining in 
Iraq?
    This hearing and I think a most important briefing in which 
two distinguished parliamentarians from Iraq will come before 
this committee and give us their perspective will explore all 
of these issues.
    But before I introduce this distinguished panel let me turn 
to my friend from California and the ranking member of this 
committee, Dana Rohrabacher, for any opening comments he might 
have.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Let me 
note that the chairman has taken special interest in the 
various legal and diplomatic agreements that have been made 
concerning the ongoing conflict in Iraq. The chairman was the 
first one to take notice of the Status of Forces Agreement.
    It could be the reason he was the first one to take notice 
is the fact that Congress had been totally left out of the loop 
that we were going to have a Status of Forces Agreement and 
what the meaning of that was, so the chairman did make sure 
that we looked at that issue and demanded that Congress play 
its rightful role during the last administration as that 
agreement went forward.
    So I am here to learn about where we stand now, now that 
decisions have been made that our troops will be withdrawing 
and are currently actually involved in withdrawing and what 
legal documents and agreements and mandates that we have. I am 
here to listen and to learn.
    I do know one thing; that we all need to ponder what the 
whole Iraqi episode in American history means to us as people 
and as a nation. We have lost 4,300 of our young people. Well, 
some of them weren't young. Some of them were in their fifties 
probably I am sure or sixties.
    Male Voice. That is still young.
    Mr. Rohrabacher. Still young. But we lost 4,300 of our 
American people. Forty-three hundred died in Iraq. Forty-three 
hundred people.
    And tens of thousands more wounded. Many of them will live 
lives for the rest of their life they will live in misery, 
perhaps without a leg, perhaps half of their face has been shot 
off, perhaps they won't be able to walk or have children. 
Thousands of Americans and 4,300 killed.
    One trillion dollars of Treasury--American. One trillion 
dollars. Now, what does this all mean? What is it all about? 
That trillion dollars, I might add, had it not been spent for 
that purpose may well have prevented us from going into the 
magnitude of the economic crisis that we are facing today. 
Think of the price that we have paid. It is an incredible 
price, and we need to ponder what this all means to us as 
Americans, what commitments we will make in the future.
    I believe that the decision to go into Iraq in the first 
place was a decision based on a benevolent intent, and I 
believe the benevolent intent was that the American people, all 
of us who participated in that decision, because we did as a 
Congress, believed that the dictatorship of Saddam Hussein was 
a vicious and bloody and evil, evil regime and that we were 
willing to commit ourselves and risk the price that we paid in 
order to free the people of Iraq from this dictatorship.
    Again, we need to ponder to see if that is indeed the case. 
Was that worth it? We got rid of Saddam Hussein, and then of 
course more and more casualties, more and more treasure trying 
to prevent radical Islamicists from taking advantage of the 
chaos and the confusion of what happens after the transition 
after a dictatorship into some other kind of government.
    Was all of that worth it? What it is all about, and what 
are the remnants that are left behind that we have to deal with 
now? Today we are going to hear about the legal remnants and 
some of the agreements, and I am here, as I say, to learn about 
that because that is something we have to deal with as well. We 
have to deal with some of the relationships and some of the 
situations that existed before our intervention in that 
situation, and we now have to deal with that.
    One of the I think major issues is Camp Ashraf where we 
have people who have committed themselves to pose the Islamic 
dictatorship in Iran, and we have a group of people who were 
permitted to stage themselves from Iraqi territory and they are 
now caught in a situation that had we not intervened wouldn't 
exist, so the fact is it is up to us to confront the issue of 
Camp Ashraf and what happens to those people.
    I would hope that considering that we spent all of this 
money and all of this blood trying to establish a country that 
would be more democratic and have more concern for human rights 
that the Government of Iraq would operate with some of those 
values instead of with an iron fist and trying to exert its 
authority in situations like Camp Ashraf.
    I would hope that the 43 prisoners that they have taken 
from Camp Ashraf will be treated well, which I doubt, but that 
their human rights will be respected and the human rights of 
those people will be respected. How the Government of Iraq acts 
from now on will determine for the people of the United States 
whether or not it was worth us to go in and spend the lives of 
our children and spend the treasure that we could have used in 
our own families here at home.
    If it is a democratic government and they treat people with 
respect and human rights and they perhaps try to solve their 
own problems, respecting the rights of various peoples within 
Iraq--the Kurds, the Christians, other minorities--and as they 
treat each other, the Sunnis and the Shiites treat each other, 
that will determine whether or not the American people will 
look back and say yes, it was worth giving my son's life to see 
that that vicious dictatorship was removed.
    If they make the wrong decisions in these areas, Mr. 
Chairman, I believe that there will be a deep resentment of the 
American people to the leaders and our Government who sent them 
there, but also to the people of Iraq who have not lived up to 
the opportunity that we paid such a dear price to give them.
    With that, I am very interested in the testimony. Thank you 
for holding this hearing today.
    Mr. Delahunt. Thank you. Thank you, Dana.
    Well, let me begin by introducing our witnesses. They have 
become regulars before this particular subcommittee. They are 
all distinguished in their own right, and we welcome them back.
    First we have Professor Mike Matheson. He is a member of 
the International Law factory--faculty rather, not factory; is 
that some sort of Freudian slip there--of the George Washington 
University Law School here in Washington. He served from 2003 
to 2006 as the American member of the U.N. International Law 
Commission.
    From 1972 to 2000, he worked in the Legal Advisor's Office 
at the Department of State, including 2 years as Acting Legal 
Advisor of the Department. While at the State, he led efforts 
to create the International Criminal Tribunals for Yugoslavia 
and Rwanda and the U.N. Compensation Commission for Gulf War 
Claims, and he headed the U.S. delegation with the rank of 
Ambassador to the U.N. Negotiations on Conventional Weapons.
    He has written a book on the U.N. Security Council in the 
post Cold War period and on international humanitarian law in 
recent conflicts, as well as multiple articles and other 
pieces.
    I would note that Professor Matheson currently has a 
consulting contract with the State Department in the amount of 
$20,000 concerning the Kosovo case before the International 
Court of Justice. However, he is appearing here today in his 
own capacity and not as a representative of the United States 
Government.
    Next we have Dr. Ken Katzman of the Congressional Research 
Service. He serves as a Senior Middle East Analyst for the U.S. 
Congress with a special emphasis on Iran, Iraq and the Persian 
Gulf States, Afghanistan and terrorist groups operating in the 
Middle East and South Asia. He is a busy guy these days.
    He has also written numerous articles and various outside 
publications, including a book entitled The Warriors of Islam: 
Iran's Revolutionary Guard, and has given numerous official 
presentations and briefings at conferences worldwide.
    And last, but certainly not least, Steve Rademaker. He 
currently serves as Senior Counsel for the BGR Consulting 
Group. He joined BGR in 2007 following a distinguished career 
in all three branches of government.
    What is particularly interesting for the purposes of this 
hearing is that he served from 2005 to 2006 as a member of the 
College of Commissioners of the United Nations Monitoring, 
Verification and Inspection Commission, commonly known as 
UNMOVIC, which was a U.N. mandated operation regarding Iraq 
that has since been terminated.
    He continues to serve on the U.N. Secretary General's 
Advisory Board in disarmament matters and has joined the U.N. 
Commission on the Prevention of Proliferation of Weapons of 
Mass Destruction and Terrorism.
    In 2002, he became an Assistant Secretary of State, and 
from then until 2006 he headed at various times three bureaus 
of the Department of State, including the Bureau of Arms 
Control and the Bureau of International Security in 
Nonproliferation, and we have to note, of course, for the 
record that he has also held positions on the staff of the 
Committee of International Relations of the House of 
Representatives, including Deputy Staff Director and Chief 
Counsel.
    We welcome you all. Steve, we welcome you back. Let us 
begin with Mike Matheson.

   STATEMENT OF MICHAEL J. MATHESON, ESQ., VISITING RESEARCH 
 PROFESSOR OF LAW, THE GEORGE WASHINGTON UNIVERSITY LAW SCHOOL

    Mr. Matheson. Thank you very much, Mr. Chairman. I have 
submitted a written statement. I suggest it be included in the 
record and that I give a summary at this point.
    My statement attempts to describe where matters stand with 
respect to the various Chapter VII measures which are still in 
effect with respect to Iraq and particularly in light of the 
provisions of the United States-Iraq agreement from last year.
    You have already noted that Article 25 of that agreement 
does recognize that the situation of Iraq is fundamentally 
different now than it was in 1991. It acknowledges that Iraq 
should return to the legal standing that it had before the Gulf 
War, and it pledges the United States to use its best efforts 
toward that objective.
    The Security Council itself has agreed with this general 
objective, and in fact over the past few years it has itself 
taken a number of steps to revoke or to modify some of the more 
onerous Chapter VII measures that had been applied to Iraq 
after the Gulf War: In particular, a lifting of the trade and 
financial sanctions, an easing of U.N. control over Iraqi oil 
and gas revenues, and the expiration of the multinational force 
mandate.
    Now, in July of this year the U.N. Secretary General issued 
a report which reported on where matters stood with respect to 
those measures that remained, and it noted that progress had 
been made on a number of points with respect to these matters. 
It supported the gradual restoration of Iraq to its prior 
status, but it also noted that there were some unresolved 
matters which still had to be dealt with.
    Now, the first area of these unresolved matters relates to 
the compensation for the losses suffered by Kuwait and other 
countries during the Gulf War. As you know, in 1991 the 
Security Council created a U.N. Compensation Commission to 
provide compensation to the various victims of the Gulf War and 
to make payments for that purpose from Iraqi oil export 
revenues.
    Ultimately the Commission awarded a total of about $52 
billion to claimants of various nationalities, including 
Americans. To date, about $28 billion of that has been paid, 
which leaves about $24 billion representing unpaid claims by 
Kuwait for damage to the Kuwaiti environment and to the Kuwaiti 
oil industry.
    Originally for this purpose deductions were being made from 
Iraqi oil exports to the tune of 30 percent. This was reduced 
in recent years to 5 percent, and Iraq has now proposed that it 
be reduced to 1 percent if not eliminated altogether. Since the 
remaining claims against the fund are Kuwaiti, hopefully this 
can be resolved by some kind of accommodation reached between 
Iraq and Kuwait.
    One suggestion that apparently has been considered is that 
these unpaid amounts be used to fund investments in 
infrastructure projects in Iraq. In any event, Article 26 of 
the U.S.-Iraq agreement says that the United States is going to 
support Iraq in achieving a final resolution of these 
compensation issues.
    The second area of unresolved issues relates to other Iraqi 
debts and assets. At the end of last year, the Security Council 
decided at Iraq's request to continue in effect a number of 
measures that had been put in place to handle Iraqi funds and 
assets: Specifically the deposit of Iraqi oil export funds into 
a development fund, which is now administered by Iraq, and the 
operation of an international advisory and monitoring board to 
monitor the accounting and use of those funds.
    These funds and Iraqi oil assets generally are made immune 
from attachments by Security Council decisions with some 
exceptions. Now, in the Secretary General's July report it said 
that Iraq was now basically ready to assume these oversight 
responsibilities, but it did note that there were certain 
unresolved technical questions outstanding with respect to 
Iraqi internal controls and the deposit of certain funds into 
this development fund.
    It is also important to resolve the large volume of claims 
against Iraq and debts of Iraq that date back to the Saddam 
regime. This includes claims of U.S. nationals, and this is 
necessary so that Iraq can resume its normal responsibility of 
a sovereign state for its assets and liabilities. Again, 
Article 26 of the U.S.-Iraq agreement says that the United 
States will assist Iraq in trying to resolve these matters as 
well.
    Next is the area of weapons of mass destruction. As you 
know, after the Gulf War the U.N. Security Council required the 
elimination of Iraqi WMD and also imposed some significant 
constraints on Iraqi activities and Iraqi capabilities that 
might be used in the future for WMD purposes. This includes 
chemical and biological weapons. It includes long range 
ballistic missiles and, most importantly, it includes all 
nuclear items and activities except for certain limited medical 
and other purposes.
    Now, at the time Iraq was required to accept a 
comprehensive and unusual regime of international inspections 
to verify its compliance with these provisions. In 2007, the 
Security Council decided that these extraordinary inspection 
regimes were no longer necessary.
    But it did keep in effect the restrictions on Iraqi nuclear 
and other activities, and the resolutions say that these will 
continue until the Security Council determines that Iraq is in 
compliance with Council resolutions and the International 
Atomic Energy Administration or Agency decides that Iraq is in 
full compliance with nuclear safeguards agreements. Neither of 
these steps has yet occurred.
    Apparently there is some further work required on technical 
issues, particularly with respect to possible future Iraqi 
peaceful nuclear activities, and I think probably there is also 
a policy, or perhaps it is a tactical question, about how the 
complete lifting of all of these restrictions at this point, 
how it would relate to United States and other nonproliferation 
objectives in the region, particularly with respect to Iran.
    Then there are a series of other issues on which Chapter 
VII measures remain in effect. For example, after the Gulf War 
the Security Council created a Boundary Commission to resolve 
the Iraq-Kuwait border dispute which had been one of the 
ostensible causes for the Gulf War, and when that process of 
demarcation was completed the Council guaranteed the newly 
demarcated boundary. So the question arises as to whether it 
might be desirable to continue that guarantee of the boundary 
in force.
    There are also a series of measures to locate and to 
repatriate the remains and the property of Kuwaiti and third 
country nationals who were missing during the Gulf War. The 
embargo on arms shipments to nongovernmental entities in Iraq 
remains. There are measures to facilitate the return of Iraqi 
cultural property and so on. The Secretary General's report 
this year identified a number of unresolved issues with respect 
to each of these items, so it may be necessary to continue 
these in effect until those remaining issues are resolved.
    In conclusion, I think all parties are agreed on the 
principle that Iraq should be restored to the legal and 
international status that it enjoyed prior to the Gulf War, 
but, as you said, it is not quite so simple. Some measures 
apparently need to continue in effect for an interim period 
until technical questions are resolved. That includes, for 
example, the administration of the oil proceeds and their 
protection from attachment.
    Some issues probably could only be eliminated when 
questions between Iraq and other states are resolved, and a 
good example of this is the compensation issue with respect to 
Kuwait. And it might be that the Council decides that certain 
other matters should be kept in force for a temporary period 
for policy reasons, and the WMD and the boundary questions may 
fall into that category.
    What I would stress on the whole is that this process of 
orderly resolution of these remaining Chapter VII issues need 
not be taken as any kind of derogation from Iraqi sovereignty, 
nor should it be taken as any kind of statement that Iraq is 
not a full, equal state on a par with others in the 
international community.
    The Security Council has used Chapter VII on many occasions 
in the past to deploy peacekeeping forces and other missions, 
and to take other measures, without derogating from the 
sovereignty of states that might be involved, and in fact all 
states have certain duties under Chapter VII, including the 
United States: For example, a duty to prosecute or extradite 
international terrorists found in our territory.
    So my point would be that Iraq has already been relieved of 
the great burden of the onerous restrictions from the Saddam 
era, and there is no reason why the remaining issues can't be 
dealt with and resolved in an orderly manner with the objective 
of restoring Iraq to its full status prior to the Gulf War.
    That is the end of my presentation. Of course, I would be 
glad to answer questions.
    [The prepared statement of Mr. Matheson follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Delahunt. Thank you, Mr. Matheson.
    Next we will go to Dr. Katzman.

STATEMENT OF KENNETH KATZMAN, PH.D., SPECIALIST IN MIDDLE EAST 
            AFFAIRS, CONGRESSIONAL RESEARCH SERVICE

    Mr. Katzman. Thank you, Mr. Chairman, for having me back; 
Mr. Rohrabacher, for asking me to appear today.
    Mr. Delahunt. Can you hit the button, Ken?
    Mr. Katzman. Thank you very much for asking me to appear.
    My primary responsibilities at CRS are on Iraqi politics, 
culture, history, United States policy toward Iraq rather than 
specifically the legalities of the U.S.-Iraq agreement or the 
United Nations. I will summarize my comments and ask that the 
remainder be submitted for the record. Thank you very much.
    In evaluating the implementation of the U.S.-Iraq Security 
Agreement, including these provisions committing the United 
States to support lifting the remaining Chapter VII resolutions 
mandate, it is useful I think to assess where Iraqi politics 
stand, and that I think addresses the broader questions in 
several opening statements about where the U.S. mission stands, 
the implications of the United States decision to intervene in 
Iraq in 2003.
    In general, Iraq's political system can be characterized by 
peaceful competition rather than violence. However, 
sectarianism and ethnic and factional in-fighting continue to 
simmer, and many Iraqi views and positions are colored by 
efforts to outflank, outmaneuver and constrain rival factions.
    These tendencies will only grow in the run up to the 
January 16, 2010, national elections in Iraq, which may also 
concurrently include a vote, a referendum on the U.S.-Iraq 
agreement subject to that would have to be approved by the 
National Assembly to have the referendum. That decision has not 
been taken yet.
    Compounding the factional tensions is the perception that 
Prime Minister Maliki is in a strong position politically. This 
is largely a result of the strong showing of his Da'wa Party in 
the January 31, 2009, provincial elections. His showing in 
those elections was in turn a product of his benefitting from 
an improved security situation, his positions in favor of 
strong central government as opposed to local tendencies or 
regionalism and his March 2008 move against Shiite militias who 
were virtually controlling Basra and Umm Qasr Port.
    Although Maliki's coalition was the clear winner in these 
elections, the subsequent efforts to form provincial 
administrations demonstrated that he still needs to bargain 
with rival factions, including that of the radical young Shiite 
cleric, Moqtuda Al Sadr, who is studying Islamic theology in 
Iran with the intention of trying to improve his standing in 
the clerical hierarchy.
    Possibly as a result of his strength in position, Maliki is 
seen by rivals as increasingly authoritarian. He is widely 
assessed by United States and Iraqi experts as attempting to 
gain control of the security services and build new security 
organs loyal to him personally rather than to institutions. 
Some have accused him of purging security officials he 
perceived as insufficiently loyal.
    He has also reportedly been using security forces to 
politically intimidate opponents, including in Diyala Province, 
for example. Four thousand Special Operations Commandos, part 
of the Iraqi Security Forces, the official forces of Iraq, 
report to Maliki's Office of the Commander in Chief and not to 
the Defense or Interior Ministries. Some of Maliki's opponents 
and critics say these political tactics mimic the steps taken 
by Saddam Hussein when he was rising to power to centralize his 
rule.
    Maliki has also used the U.S.-Iraq agreement for his own 
political interest to some extent. Contributing toward the 
perception of him as a strong leader was his insistence on 
certain concessions from the United States in the negotiations 
on the security agreement. First and foremost was his demand 
that the agreement include a firm timetable for the United 
States to withdraw from Iraq. That was included in the security 
agreement, and President Obama has delineated a draw down plan 
that comports with the agreement.
    There is a specific stipulation in the security agreement 
which Maliki had wanted that by June 30 of this year the United 
States would withdraw forces from Iraq's cities. U.S. military 
leaders had advised Maliki that there are certain areas of 
Iraq, particularly Mosul in the north and Sadr City, the Sadris 
neighborhood of Baghdad, a very large neighborhood, where U.S. 
forces should remain beyond June 30.
    Maliki refused and disagreed with that, and the U.S., in 
order to fulfill its commitments under the security agreement, 
agreed to pull U.S. forces out of Mosul and Sadr City by June 
30, and that was accomplished. There was also a demand 
purportedly urged by the Iranians in the security agreement 
that there is a provision that facilities in Iraq cannot be 
used by the United States to attack other countries, 
particularly Iran, and that was a demand that was included also 
in the security agreement.
    On the other hand, Maliki's political position is not 
unassailable, and it is argued that he might sink or swim with 
perceptions of changing security situations. His position could 
potentially weaken, even dramatically, if the security 
situation deteriorates, and there was some thinking that he was 
very much embarrassed by major bombings on August 19 which 
killed about a hundred Iraqis and severely damaged the Finance 
and Foreign Ministries.
    Because Maliki still is politically strong, there are 
various coalitions that are forming to try to best him in the 
January 16, 2010, national elections for a new Parliament, and 
of course the Parliament determines the next government. Maliki 
would like to continue as Prime Minister after those elections.
    A major development came just a few weeks ago when an Iraq 
National Alliance formed, which is a coalition of some former 
allies of Maliki, particularly the Supreme Council, the Islamic 
Supreme Council of Iraq, a fairly pro Iranian party; the 
Sadrist Movement; Fadilah Party, which is a small Shia Party 
mainly in Basra; and allies of Ahmad Chalabi Iraq National 
Congress. Ahmad Chalabi was part of the new coalition, as well 
as former Prime Minister Ibrahim al-Jafari, who was from the 
same party from Maliki, but Maliki ousted him as Da'wa leader 
and now Jafari wants to get him back, so to speak.
    So these various coalitions are forming, and some question 
why former Prime Minister Iyad al-Allawi, who will be part of 
the briefing after this hearing, did not join the new alliance. 
He has been generally a critic of Maliki and has even been 
mentioned over the past few years as agitating to replace 
Maliki, but because of Allawi's rivalry with Ahmad Chalabi many 
experts attribute that to the fact that Allawi is not part of 
this new coalition.
    Maliki is negotiating with a lot of different parties to 
get his own block to countervail against this new block that 
has formed. One person he is allegedly purportedly talking to 
is Saleh Mutlaq, who is going to be part of the briefing after 
this hearing, other Sunnis. And some would say this is a 
positive because now we have Shias allying with Sunnis in some 
cases. That was not the case during the civil war period, 2006-
2007, so we now have cross-sectarian alliances forming.
    The main problem I think in Iraqi politics is the Arab-
Kurdish dispute that is not getting any better. There have been 
some near clashes up in the north. A very, very pro era party 
won the provincial elections in the north and would like to 
push the Kurds out of disputed villages in Nineveh Province. 
Mosul is the capital of Nineveh. That is a huge problem. 
General Odierno has now recommended a plan to have some 
confidence building measures involving U.S. force.
    Just to start concluding, the security agreement gives 
Maliki the opportunity to burnish his Iraqi debt, nationalist 
credentials. By allowing a Cabinet vote on the referendum he 
shows that he is taking other views into account. It is likely, 
however, the Maliki--he signed the agreement. It is unlikely I 
think that he will try to agitate either for a referendum 
necessarily or, if there is a referendum, for it to be voted 
down since Maliki did sign onto it and he is to some extent co-
opted by it.
    It is unlikely he would agitate to vote down the 
referendum. If the referendum is held and voted down, U.S. 
troops might be required to withdraw by January 2011 rather 
than the December 2011 under the existing security agreement, 
and President Obama's draw down plan meets that timeframe.
    I would just conclude by saying the Iraq-Kuwait issue is a 
major issue. Obviously Kuwait wants all its reparations funds. 
The main claims that they are still owed are for the damage to 
the oil fields that was done by Saddam's invasion. Iraq wants 
to stop paying this compensation, the reparations that cost 
Iraq $660 million from January to June of this year, so it is 
about $110 million per month that Iraq is paying for this 
compensation. Iraq views that as funds that could be used 
better for economic development. Kuwait of course wants full 
reparations.
    I would say President Obama, in his meeting with Maliki on 
July 22, made a clear statement supporting the Iraqi position 
saying the Iraqi people should not be held to account for what 
Saddam did, but the Kuwaitis so far are not backing down, and 
this is an irritant in Iraq-Kuwait relations.
    Thank you very much.
    [The prepared statement of Mr. Katzman follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Delahunt. Well, thank you.
    Steve Rademaker. Steve?

 STATEMENT OF STEPHEN G. RADEMAKER, ESQ., SENIOR COUNSEL, BGR 
 GROUP (FORMER ASSISTANT SECRETARY OF STATE FOR INTERNATIONAL 
                 SECURITY AND NONPROLIFERATION)

    Mr. Rademaker. Mr. Chairman, Congressman Rohrabacher, 
members of the subcommittee, it is a great pleasure for me to 
testify today before you on the continued application to Iraq 
of United Nations mandates imposed pursuant to Chapter VII of 
the U.N. charter.
    I did want to note at the outset for the record that I am a 
registered lobbyist for the Kurdistan Regional Government of 
Iraq. I believe, however, that I was not invited to appear here 
today as a spokesman for the Kurdistan Regional Government, but 
rather in my personal capacity, so anything that I say today 
will represent my own personal views and not necessarily those 
of the Kurdistan Regional Government or anyone else.
    As you know, I was a late addition to this panel, and 
therefore I have not studied this issue to the same degree as 
my distinguished co-panelists. I do, however, share the view 
that, as a general proposition, the struggling democracy that 
is today's Iraq should, to the maximum extent possible, be 
treated as a normal, sovereign nation.
    Restrictions that were imposed by the international 
community on Saddam Hussein's regime need to be reassessed in 
the vastly improved situation that prevails today. I therefore 
support the Bush administration's undertaking in Article 25 of 
the U.S.-Iraq Security Agreement to use its best efforts to 
help Iraq take the steps necessary to regain its previous 
international legal standing.
    I believe that the main contribution I can make to today's 
hearing is to share with the members of the subcommittee my own 
experience as an official of the Bush administration in seeking 
to free Iraq from one of the Chapter VII mandates that remained 
in place even after the removal of Saddam Hussein.
    From 2005 to 2006, I represented the United States as a 
member of the College of Commissioners of the United Nations 
Monitoring, Verification and Inspection Commission, which was 
known as UNMOVIC. This Commission was established in 1999 as 
the successor to a similar U.N. entity, the United Nations 
Special Commission, or UNSCOM, that was established by the 
Security Council upon the conclusion of the first Persian Gulf 
War in 1991. Both entities were charged, along with the 
International Atomic Energy Agency, with inspecting and 
dismantling Iraq's weapons of mass destruction and long range 
missile programs.
    I think the key point to bear in mind is that UNMOVIC was 
financed using Iraqi funds, funds which were held in the U.N. 
maintained Oil for Food Program account. This meant that 
UNMOVIC operated at no cost to the United Nations and therefore 
there was no natural constraint on the size of its budget or 
staff. During my time as an UNMOVIC Commissioner, the 
organization's budget was in excess of $10 million per year, 
which was substantially less than in previous years, but still 
a lot of money for an organization that had no real work left 
to do.
    Shortly after I was appointed as a Commissioner for UNMOVIC 
I came to the conclusion that UNMOVIC was no longer necessary 
and should be abolished, and I spent the remainder of my time 
on the College of Commissioners seeking to build a consensus in 
favor of eliminating the organization. I have to tell you, 
though, that this proved to be very challenging, and I quickly 
discovered that there were a number of competing agendas at 
work, and because no country other than Iraq was paying for 
UNMOVIC, there was almost no pressure to restrain those 
agendas.
    One such agenda was that of the management and staff of 
UNMOVIC. To be blunt, this was a collection of people who had 
very good paying jobs that they wanted to keep, and as a result 
they spent a great deal of time coming up with rationales for 
preserving the existence of the organization. They were very 
good at identifying unfinished tasks that they proposed to 
finish, both inside of Iraq and outside of Iraq.
    They also were very quick to propose new missions for the 
organization, missions in most cases completely unrelated to 
Iraq. At various times they proposed that UNMOVIC could become 
a U.N. inspections mechanism for Iran. They proposed that it 
could become a standby weapons of mass destruction inspection 
mechanism attached to the U.N. Secretariat to be deployed on 
short notice anywhere in the world where it might be needed.
    At one point they suggested that they should become an 
inspections mechanism for the Biological Weapons Convention. At 
another point they suggested that they could take over 
responsibility for running Iraq's export control system, which 
was something that Iraq and all countries were required under 
U.N. Resolution 1540 to establish.
    I suppose it is not surprising that the employees of the 
organization would have as an agenda preserving their jobs, but 
I was surprised to discover that there was a lot of sympathy 
for this among some of my fellow Commissioners. The rationale 
or the explanation that my fellow Commissioners would provide 
varied. In the case of a number of the Commissioners from less 
developed countries, I think the bottom line was that they were 
eager to ensure the nationals from their countries who had jobs 
at UNMOVIC were able to keep their jobs. It was that simple.
    Beyond this, there were Commissioners from a number of G8 
countries--in other words, large industrialized countries, 
allies of the United States--who were ideologically committed 
to the idea that the United Nations should have some sort of 
weapons of mass destruction inspections capability.
    And since UNMOVIC afforded that capability, they were 
reflectively attached to the notion that UNMOVIC should be kept 
in business and used in the future however it might be 
convenient for the U.N. Frankly, for them the rationale made no 
difference. They just favored the preservation of UNMOVIC even 
if in the near term it had nothing to do.
    Then there was Russia. Russia had a very different agenda. 
It was determined, as best I would tell, to use UNMOVIC to 
underscore that the Bush administration had invaded Iraq on the 
basis of faulty intelligence about Iraqi weapons of mass 
destructions programs, so Russia took the position that it 
could only agree to abolish UNMOVIC if the organization were 
given about a year to write a final report on Iraq's weapons of 
mass destruction programs.
    And in their conception, this report was to be essentially 
a U.N. review of the so-called Duelfer Report, which was a U.S. 
Government-sponsored report on Iraqi weapons of mass 
destruction, and the Russians insisted that the UNMOVIC 
inspectors be given access to all the information that the 
Duelfer Commission had had access to as they prepared their 
review of the Duelfer Report.
    To me it was remarkable that none of these agendas had 
anything to do with the best interests of the Iraqi people, and 
very few of the agendas had any serious relationship to 
UNMOVIC's original mandate, which was to identify and dismantle 
weapons of mass destruction programs in Iraq. I was not able 
during my time as a Commissioner to make much headway against 
these agendas.
    Fortunately, after I left the College, after I left the 
State Department, I was succeeded by two very able public 
servants, Frank Record and then Robert Witajewski, both of whom 
shared my commitment to abolishing UNMOVIC. Mr. Record should 
be well known to many in this room because, like me, he spent 
much of his career on the professional staff of this committee. 
Mr. Witajewski is a now retired career Foreign Service Officer 
who distinguished himself in this and many other endeavors over 
a period of more than two decades at the State Department.
    Messrs. Record and Witajewski continued to pursue the 
abolition of UNMOVIC during their service on the College of 
Commissioners, and with the passage of time they encountered 
less resistance to the idea. The United Kingdom and France 
eventually joined them in providing leadership on this issue, 
and eventually even Russia came around.
    Once consensus was achieved among the P5 members of the 
U.N. Security Council it became possible for the Security 
Council to act to abolish UNMOVIC, and that finally happened in 
June 2007 with the adoption of Security Council Resolution 
1762.
    The main lesson I would draw from this experience for the 
remaining Chapter VII mandates that we are discussing today is 
that we need to look or we need to expect institutional 
resistance to change in these mandates, and we should look 
skeptically at rationalizations that may be offered for 
continuing to treat Iraq differently than other countries.
    With that, Mr. Chairman, I will conclude my remarks, and I 
stand prepared to respond to any questions you or the other 
members may have. Thank you.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Delahunt. Thank you, Mr. Rademaker.
    I also want to note the presence of our colleague from 
Minnesota, Keith Ellison, an individual with great interest in 
issues involving the Middle East and obviously clearly what is 
transpiring in Iraq.
    I want to thank you, Mr. Matheson, for really enumerating 
what are the outstanding issues, the outstanding items, if you 
will, that still fall under the Chapter VII mandate. From your 
vantage point--and this is to everybody on the panel. Let me 
begin with you. What kind of progress is being made in terms of 
the discussions and the negotiations that are going on? Would 
you give it a satisfactory?
    Obviously we are going to have an opportunity to hear from 
two distinguished parliamentarians from Iraq, but in terms of 
the process itself what is the current status? What are the 
most difficult issues, the most thorny issues, and is there a 
timeframe which is reasonable to assume that most of 
particularly the more difficult issues can be resolved?
    Mr. Matheson. Well, I think it varies depending upon which 
area you are talking about. There are some areas in which the 
outstanding issues seem to be technical in question--for 
example, in the accounting for deposits into this development 
fund and the Iraqi accounting controls and so on--which 
hopefully might be resolved simply by a greater, more 
concentrated effort by Iraqis and others to resolve the 
technical questions.
    Some involve more substantial interests; for example, the 
compensation question issue, which obviously is a question of 
whether the burden of these unpaid claims will lay upon the new 
Iraq regime or will be borne by Kuwait. They are hopeful Iraq 
and Kuwait could negotiate a resolution of that, but obviously 
that involves some serious substantive interests on both sides.
    Mr. Delahunt. Are those discussions ongoing?
    Mr. Matheson. Well, the Secretary General's report suggests 
that there have been discussions and it expresses some kind of 
very guarded optimism about the possibilities, but I don't know 
whether to endorse that.
    Mr. Delahunt. Ken Katzman, do you have knowledge of the 
discussions and how they are proceeding?
    Mr. Katzman. Well, the report that is referenced, there is 
a tantalizing statement in that report about a possible 
compromise under which Iraq would not any longer be paying 
compensation, but the monies--instead of being compensation, it 
would be an Iraqi investment in Kuwait instead of paying money 
into this reparations fund.
    The same money would go, but it would be an investment that 
Iraq could eventually earn a profit on, and Iraq would still 
have equity.
    Mr. Delahunt. Again, and I know negotiations obviously are 
not necessarily transparent, nor should they be, but is anyone 
on the panel aware of the American or the U.S. involvement in 
terms of encouraging those negotiations?
    Mr. Katzman. Well, I would just add the Emir of Kuwait was 
here a few weeks ago, and this wasn't reflected in the official 
communique. It was a very brief communique after his meeting 
with President Obama, but in my discussions around town clearly 
this was discussed.
    Some compromises along these lines of investment, reducing 
the compensation amount, the percentage. These are all under 
active discussion is my understanding.
    Mr. Delahunt. Well, I think we can welcome that discussions 
are going on and there appears to be significant or some 
American involvement because clearly according to the bilateral 
agreement we do have that obligation to assist Iraq and help 
the parties reach an agreement.
    I would like to go for a moment to the referendum issue, 
and clearly it would appear whether there is a referendum has 
not been decided by the Council of Representatives. And I think 
it was you, Dr. Katzman, who indicated that that probably will 
not be decided until things sort out politically in terms of 
the forthcoming election.
    Would the referendum and the elections in January be held 
simultaneously?
    Mr. Katzman. That is what the Iraqi Cabinet has decided. 
Now it is for the Parliament to decide whether to endorse that 
or not have a referendum at all or have it some different time.
    Mr. Delahunt. I think what is fascinating is I hear you 
describe the shifting alliances. It is beginning to sound like 
a democracy, particularly when coalitions that are 
nonsectarian-based are coming together for obviously their own 
self-interest, but I daresay that that is a much more 
preferable situation and something that might be familiar here 
in this particular institution as well.
    As I said earlier in my own remarks, and let me just throw 
this at you. I think it is really important for the United 
States not only to assist in terms of meeting its obligations 
under the bilateral agreement, but to continue to stay engaged. 
I think it is clear that the elections that will be held in 
January are of critical importance in terms of what occurs not 
only in Iraq subsequently, but in the entire region.
    Let me pose to all of you, and this is not directly on 
issue, but the possibility of the United Nations with American 
support, with United States support, a substantial monitoring 
presence and effort in terms of those elections to reassure the 
Iraqi people of the integrity of the electoral process.
    Clearly what has occurred in Afghanistan is profoundly 
disturbing and is potentially destabilizing in Afghanistan. I 
had a conversation in fact yesterday--he is not here now--with 
our colleague and friend from Indiana, Mr. Burton, and I 
haven't had a chance yet to talk to Mr. Rohrabacher, about the 
United States and this Congress pressing the administration and 
the United States to provide for a substantial presence to 
provide for security in terms of the electoral process as it 
develops and hopefully culminates in a free and fair and fully 
engaged citizenry going to the polls in January.
    You know, I think that is something that we should do. I 
have discussed with Mr. Burton, and I will obviously with Mr. 
Rohrabacher, sending a letter to the administration to that 
effect and conveying to the appropriate United Nations 
officials how significant that is. Care to comment, Ken 
Katzman?
    Mr. Katzman. I would just comment that General Odierno's 
draw down plan envisions--well, President Obama's plan is to 
draw down to approximately 50,000 United States forces by 
August next year. There are right now approximately 120,000 
United States forces in Iraq.
    The current understanding is the U.S. will stay roughly at 
that level until the election, so there will be about 120,000 
U.S. forces----
    Mr. Delahunt. What do you think about deploying them----
    Mr. Katzman [continuing]. And withdraw the 70,000 right 
after the election.
    Mr. Delahunt. What about deploying those forces to ensure 
the security of polling places and hopefully enhancing, if you 
will, the confidence of the Iraqi people in the integrity of 
those elections?
    Mr. Katzman. Yes. The U.S. military I don't believe is----
    Mr. Delahunt. I don't believe we have that authority under 
the bilateral agreement.
    Mr. Katzman. The agreement. Well, in previous elections the 
Iraqis were in the front line on security for elections with 
the United States available if there were a problem.
    Under the United States-Iraq pact there is not an exception 
for the elections for the United States to redeploy into the 
Iraqi cities, so I suspect it will be roughly the same where 
the United States is sort of over the horizon, but available if 
a problem occurs.
    Mr. Delahunt. But again I think my own sense is that there 
is so much riding on these particular elections, at least from 
my perspective, particularly given what we observed occurring 
in Afghanistan where the election results are very much in 
doubt.
    Maybe pressing both our own administration, as well as the 
Maliki government, to ensure that there is a more fully engaged 
and visible presence of American military in a backup role 
obviously respecting the sovereignty of Iraq because what I see 
occurring is if there is not an election that has the 
confidence of the Iraqi people there is the potential for 
deterioration in terms of what clearly is a very fragile 
situation.
    While elections certainly are not the essence, if you will, 
of democracy, you have to have them to get to the point where 
you have institutions that are viable and mature. Any comment?
    [No response.]
    Mr. Delahunt. None? Seeing that, I am going to recognize my 
friend from California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
again thank you for calling this hearing.
    Again, let me note that you were one of the first Members 
of Congress to focus on these types of agreements, the Status 
of Forces Agreement, and to draw the attention of the Congress 
to the importance of what was being done, those treaties and 
agreements that were being made during the last administration.
    I also congratulate our panel. I thought Mr. Matheson gave 
us a very good understanding of the outstanding issues and Mr. 
Katzman, of course, gave us what he always does when he 
testifies, a very I would say detailed account of where we 
stand at the moment and how the political issues stand in Iraq 
and how they affect these outstanding issues.
    Of course, Mr. Rademaker, let me just note that your 
testimony was very enlightening because it gives us an insight 
into some of the unseen challenges that we must overcome in 
order to solve and to deal with the outstanding issues, so all 
in all this panel really was a top notch panel. Thank you all 
for participating.
    A couple of specific questions and points. Let me just note 
in terms of the Iraqi debt to Kuwait, which seems to be one of 
these outstanding issues. I think that when we confront the 
issue we must understand that Kuwait was a country that was 
destroyed--destroyed--by the invasion of Iraq. The Iraqi 
invasion of Kuwait caused the equivalent of millions of lives 
lost in the United States.
    If we would have an analogous situation to our population 
size and what happened in Kuwait, it would have been the 
equivalent of the killing of millions of Americans and the 
destruction of all of our major assets, not to mention all the 
buildings that were gutted, the treasure that was looted. It 
would be the equivalent of hundreds of thousands of POWs that 
would have been taken from the United States and murdered while 
in captivity.
    I think there is a totally legitimate debt that is owed to 
the people of Kuwait, and we should not in our efforts to try 
to just close the loop and bring an end to loose ends and to 
tie everything together and then move on. We must not do that 
at the expense of a very honest and legitimate debt that is 
owed to the people of Kuwait. They suffered tremendously and 
needlessly. We have visited, those of us who visited that, and 
saw the destruction. We are talking about wealth and part of a 
compensation.
    Let us just put it this way. When the Iraqi troops withdrew 
the destruction of the amount of oil that was burned and 
destroyed and infrastructure that was destroyed was just an 
overwhelming percentage of their national economy, so let us 
not discount that.
    I don't know. Perhaps maybe the solution lies not in having 
the Iraqis now in vest in projects in Kuwait from which the 
Iraqis would eventually profit. Maybe the opposite should be 
looked at.
    Maybe we should look at a situation where the Kuwaitis 
agree that the money that they are being repaid could be spent 
in Iraq, and then the compensation, then the profit eventually 
would go to the Kuwaitis while at the same time building Iraqi 
infrastructure. Maybe that is the solution rather than just 
suggesting that we in some way diminish the amount of 
compensation the Kuwaiti people will receive for what they 
suffered.
    I think it is philosophical, and let me just ask the panel. 
This is not a very detailed philosophical analysis here. When 
we look at a debt like this we have a people, Iraq. The people 
of Iraq were not in control of their government. This was not a 
democratic government that planned this invasion.
    How much morally and legally do the people of one country 
have when they are controlled by a dictatorship that commits 
them to certain actions that end up causing this type of 
destruction? Is that a moral obligation and a legal obligation 
of one people to repay what their dictatorship has brought upon 
them, even though if it had been a democracy at the time Iraq 
probably would not have invaded Kuwait?
    Mr. Matheson. Well, I think the legal answer is 
straightforward. Yes, Iraq is still liable for those amounts of 
damage, particularly since the Security Council under Chapter 
VII ruled it so.
    But that doesn't answer all your questions. Obviously both 
sides have equities here. The new Iraqi Government and the 
Iraqi people have a certain legitimacy in saying why should we 
be held responsible for Saddam's sins. On the other hand, as 
you point out, the Kuwaiti people were not responsible for that 
either, so should they bear the burden?
    In the long run, I think probably there is a need for some 
kind of pragmatic solution for this. As a matter of fact, if 
the current situation goes on it would take 15 or 20 years for 
these amounts to be repaid in any event. So Kuwait has an 
interest in a long-term satisfactory relationship with Iraq. So 
does Iraq with Kuwait. So logically there should be some kind 
of a mutual accommodation.
    What you just suggested, as I understand it, is a specific 
thing which has been under consideration and that might be 
reasonable, but we are talking about $24 billion, which even 
today is not a small amount, so obviously this is a matter that 
has to be negotiated out with some kind of mutual understanding 
and pragmatic attitude.
    Mr. Katzman. Just briefly, I think one of the 
considerations that some of the international partners are 
looking at is some Iraqis are getting resentful of the 
compensation process, and this goes back even to Saddam's 
invasion of Kuwait. There is a lot of resentment between Iraq 
and Kuwait.
    A lot of Iraqis view Kuwait as wealthy and sort of getting 
very wealthy without a lot of work, needing to work hard, and 
there is this resentment. I think what some international 
partners want to try to do is avoid a situation where the 
Iraqis feel they are sort of continuing to get a bill for 
Kuwait's wealth.
    Mr. Rohrabacher. Well, let us note this. That is a good 
point, and that is a good understanding of the sentiments in 
Iraq toward this, but let us note the rebuilding of Kuwait was 
not an easy matter.
    The Kuwaitis, their country was devastated and destroyed. 
Rebuilding that infrastructure took an enormous amount of 
effort and money to rebuild in Kuwait. Now, they are rich now 
because they went through that process.
    I could understand where people would just look at the 
situation as it is now, but let us not forget that struggle of 
rebuilding that country. That would be the equivalent of people 
who would come into our major cities and destroy all of our 
major cities, et cetera.
    Mr. Rademaker, your thoughts on that point?
    Mr. Rademaker. Yes. Thank you, Mr. Rohrabacher. Just a few 
thoughts.
    I agree with what my co-panelists have said. I think there 
is no question under international law about the responsibility 
of Iraq for the damage that was inflicted on the Government and 
people of Kuwait. I think there may be a question, though, that 
should be asked about the timing for payment of that debt.
    I think we should all be mindful, and I think the Kuwaitis 
should be mindful, of what may be an analogy earlier in the 
last century. You know, the historical judgment is that one of 
the prime contributors to Hitler's rise to power in Germany was 
the insistence of France in particular on the repayment of 
onerous war reparations that basically crippled the German 
economy and created a situation where someone like Adolf Hitler 
could come to power. I don't think it would be in Kuwait's 
interest or anyone else's interest for the payment of these 
reparations to be so onerous that a similar situation might be 
created in Iraq.
    Let me point out a further analogy involving Germany, which 
is that to this very day 60 years--more than 60 years--after 
the end of World War II Germany is still paying reparations to 
the state of Israel basically because of Nazi Germany's 
treatment of the Jewish people. Again, it is similar to Saddam 
Hussein in the sense that it was not exactly a democratic 
decision in Germany to launch the Holocaust--it was a decision 
made by a dictatorship--but now, 60 years later, Germany is 
still in the business of paying reparations.
    Let me just make one further comment, a personal reaction I 
have to this whole issue, though, and that is to point out that 
to the extent it is claimed that this is an issue of Iraq's 
ability to develop itself, a constraint on the resources 
available to the Iraqi Government, and a complaint that in the 
past year they lost $600 million that was basically revenue 
from oil exports that otherwise would have been available to 
them to develop their economy, yes, they lost $600 million.
    On the other hand, they lost billions--probably tens of 
billions--of dollars in oil revenue that they would have 
generated had they taken some pretty obvious steps to get their 
house in order, to attract foreign investment into their oil 
industry.
    You know, to the extent there is a complaint that Iraq 
needs more money and shouldn't have to pay these reparations, 
there are some things they could do such as passing an oil law 
to make it possible for them to generate a lot more money than 
they are losing in making reparations.
    Mr. Rohrabacher. Thank you for that point, and let us note 
that as we analyze what is not only moral, but practical--
legal, moral and practical--in terms of how to go about 
analyzing what we do with the debt and the policies, the 
economic policies there, let us note that I believe it is 3 
trillion barrels of oil in reserve in Iraq.
    Three trillion. I think that is the figure. Mr. Katzman, is 
that what I have heard?
    Mr. Katzman. I have to check, sir.
    Mr. Rohrabacher. It is not near that?
    Mr. Katzman. That is high.
    Mr. Rohrabacher. That is high? That was in testimony that 
was given to us I think in the full committee. Was it here or 
was it the full committee? I remember that testimony at 3 
trillion.
    Let us say it is 2 trillion barrels worth of oil. Whatever 
their reserves are, it is overwhelming. It is huge. It is one 
of the countries with a small population that has one of the 
biggest oil reserves in the world, whatever exactly what it is.
    So let us note that I think Iraq has the second largest oil 
reserves in the world, whatever that number is, and that is 
trillions of dollars one way or the other. So we need to keep 
that in mind, and I think the point Mr. Rademaker makes is 
that, yes, even though some of the timing of repaying some of 
these debts or dealing with the outstanding issues that are 
left might be costly, this is a society if they do what is 
right they will be able to meet that challenge.
    One last area, Mr. Chairman, of questions I would like to 
ask Mr. Rademaker about that, and maybe the panel could come in 
as well. Where does it stand? Where do we stand? We know Mr. 
Rademaker is representing the Kurdish Regional Government, so 
let us put that in perspective.
    I personally believe that the Kurds have demonstrated a 
certain friendship toward the United States that has not been 
demonstrated by other people in Iraq, and we have repaid that 
friendship and loyalty while our troops were there by not 
having a consulate. We don't even have a consulate in Erbil, in 
the Kurdish regional area, when 12 other countries do.
    What do you see, and then I will ask the panel what they 
see, as the leftover situation that we have to deal with and 
will it be dealt with in terms of allowing the Kurds to be able 
to understand that they will have some modicum of security once 
our troops leave?
    If you could just have a couple minutes on each one. I 
don't want to prolong it here.
    Mr. Rademaker. I think, Mr. Rohrabacher, you were initially 
directing that question to me, and let me just respond briefly 
because I think Mr. Katzman probably can give us the most 
authoritative blow-by-blow description of the situation, but I 
do think there is general recognition that one of the biggest 
challenges facing the United States during its remaining time 
in Iraq is to prevent conflict between the Kurdish people in 
Northern Iraq and the rest of the country.
    General Odierno and the other U.S. commanders are very much 
focused on that problem. That is at the security level. I think 
there are also things at the diplomatic level that Ambassador 
Hill is committed to trying to work on in order to improve that 
relationship and hopefully lay the ground for peaceful, stable 
relations within Iraq after the----
    Mr. Rohrabacher. A one word answer. Are you optimistic or 
pessimistic that we are going to be able to come to a situation 
where that challenge is met?
    Mr. Rademaker. I think the jury is still out, and I guess I 
am concerned.
    Mr. Rohrabacher. Okay. Mr. Matheson?
    Mr. Matheson. I would defer to Mr. Katzman.
    Mr. Rohrabacher. Mr. Katzman?
    Mr. Katzman. I would say the evidence would suggest 
pessimism on this issue.
    Now, the United Nations assistance mission in Iraq 
circulated in July a compromise plan on how to resolve the main 
issue is the territorial issue. The Kurds believe there are 
certain sections of Northern Iraq that are under the Central 
Government that should be part of their Kurdish Regional 
Government, and this has been the core of the dispute.
    The U.N. is trying to have a compromise. They have 
circulated a plan. The various parties have said they will use 
it as a base to start from, but it really has not jump started 
any real serious compromise.
    Mr. Rohrabacher. So we need to change something in the 
status quo in order to have a more optimistic assessment that 
we have a chance to succeed here, so we need some changes in 
the reality area.
    Thank you very much, Mr. Chairman. Thank you to the panel.
    Mr. Delahunt. Thank you, Mr. Rohrabacher.
    Let me go to the distinguished gentleman from Indiana, the 
ranking member, senior Republican on the committee dealing with 
the Middle East.
    Mr. Burton. Mr. Chairman, thank you for allowing me to sit 
in here. I appreciate that.
    I think the only questions that I have dealt with the--and 
I am not sure you are the ones I ought to be talking to. 
Perhaps we should be discussing this at the briefing that is 
going to follow, but I would like to get your views as experts 
on the long-term stability of Iraq, especially in view of the 
fact that Iran is next door and they are still involved in some 
of the nefarious activities over there and whether or not Iraq 
is going to be able to, with its own military and its own peace 
force, defend the new democracy that they have there.
    There have been a number of people with whom I have talked 
who have some serious reservations and doubts about whether or 
not Iraq will be able to survive if we pull out by I think--
when is it--next June and whether or not we ought to adjust 
that timetable, although Mr. Maliki I understand is pretty firm 
in his desire to have us leave by that time.
    So I would just like to get your assessment of that if you 
think you are qualified to make that assessment. I know it is a 
prognostication, but I would just like to know what you have to 
say.
    Mr. Katzman. Yes. Thank you. I will start off on that. 
According to the U.S. military and the U.S. State Department, 
Iran has lost some influence in the past year. Most pro Iranian 
parties did not do well in the January 2009 provincial 
elections, and the Shia militias in the south that Iran was 
supporting have been diminished by Iraqi military operations 
and a general sort of rejection of the population of Iraq to 
armed factions operating outside of government control.
    However, counterbalancing that, the leading parties in the 
Iraqi Government structure are pro Iranian parties, and they 
were started by the same ideology really that spawned the 
Islamic Revolution in Iran. Ayatollah Khomeini was in exile in 
Najaf, Iraq, in the 1960s, and a lot of his ideology about 
Islamic government, Shiite Islamic government, are the ideology 
basically of the ruling parties of Iraq right now, so there is 
a very close symbiotic relationship between the Iraqi 
Government and the Iranian Government at this point.
    Mr. Burton. Do you think that because they have that 
relationship there is a danger that that whole area could be 
controlled by more radical elements down the road?
    Mr. Katzman. Well, anything is possible, but what we are 
seeing, what we have seen recently, is there is an Iraqi 
nationalism, and the Iraqi public, even the Shias in the south, 
do not want to be told what to do by Iran or dictated to or 
have their affairs controlled by Iran, so I think that gives 
some reason for hope that Iran will not sort of take over Iraq, 
if that is the implication.
    But still, you know, Maliki is doing a lot of things Iran 
would like to see. That doesn't mean Iran is telling him to do 
it and he answers, but the two think alike on many issues. 
Absolutely.
    Mr. Burton. Any other comments?
    [No response.]
    Mr. Burton. If not, Mr. Chairman, what I will do is wait 
until we have the briefing and talk to them about it as well.
    Mr. Delahunt. Thank you, Mr. Burton.
    The distinguished gentleman from Texas, Mr. Poe?
    Mr. Poe. Thank you, Mr. Chairman. I direct my questions 
first to Mr. Katzman, and the rest of you can chime in if you 
wish. I want to zero in on Camp Ashraf.
    I want to know what the Iranians really want to do with 
those folks in Camp Ashraf. What are their long-range 
intentions and what is the United States first doing about it, 
and, second, under the Geneva Convention how does the rest of 
the world view that situation? I personally am concerned about 
what happens to them based upon the fact of what has already 
happened to them.
    Dr. Katzman, if you would address that issue I would 
appreciate it.
    Mr. Katzman. Well, the Ashraf situation is obviously a very 
difficult situation because the population of Ashraf were 
basically invited in by Saddam Hussein.
    There was a certain alignment with Saddam Hussein against 
Iran at the time, and then the United States overthrew Saddam 
Hussein and now the Government of Iraq is not aligned with this 
group that is in Ashraf and is more aligned with the Government 
of Iran, so Maliki and the Government of Iran see eye-to-eye 
really that the population of Ashraf needs to go elsewhere.
    Now, that said, Iraq has agreed under our agreement and 
under international law to certain stipulations under 
international law that there are limits to what the Iraqi 
Government can do about the Ashraf situation. They cannot just 
simply send them back to Iran. There is a process to try to 
find other places for members of the Ashraf to go.
    Mr. Poe. Well, why send them to other places? Why can't 
they stay in Camp Ashraf?
    Mr. Katzman. Well, Iraq is now a sovereign country, and the 
view is that the Iraqi Government has a right to decide whether 
this group can stay or not stay.
    Mr. Poe. And so what is your opinion? Do you think the 
Iraqi Government will move them to a place where the current 
Government of Iran will have influence over the camp? I mean, 
if you were a resident of Camp Ashraf, what do you think is 
going to happen to you?
    Mr. Katzman. If I were a resident of Camp Ashraf I would be 
one pretty nervous person, sir. Yes, sir.
    Mr. Poe. Okay. So what are we doing to make sure that--I 
mean, other than saying the Iraqi Government has agreed under 
international law and they have told us they are going to be 
good guys and treat the Iranians in Camp Ashraf nicely, how do 
we see this playing out? Tell me how this is going to play out.
    I understand the politics over the years has changed, but 
what do you think is going to happen to these folks?
    Mr. Katzman. It is very difficult to say. You know, again 
at CRS we don't really opine on one way or the other, but if 
indeed the United States completes a draw down at 2011, 
December 2011, then the Iraqi Government could take various 
decisions. Presumably the Iraqi Government is going to meet its 
obligations that it has pledged to.
    Mr. Delahunt. Would the gentleman yield?
    Mr. Poe. Certainly.
    Mr. Delahunt. Iraq is a signatory presumably to the 
Convention Against Torture, and dealing with those particular 
provisions if there is reason to believe or it is more likely 
that sending an individual to a country, even if it is a 
country of home origin, where there is a more than likely 
chance of torture or inhumane and degrading treatment, wouldn't 
the Convention, the treaty, obligate the Iraqi Government to 
find another nation that would receive those that express 
concern? Am I correct in that statement, Mr. Katzman?
    Mr. Katzman. Yes.
    Mr. Delahunt. So I think that by international treaty are 
we going to accept the assurances put forth by the Iraqi 
Government? In many respects that is why the elections, and I 
want to get back to that, are so critical in terms of their 
integrity, and I am sure these are issues that will be debated 
in this nascent democracy.
    In fact, we are having a similar problem in terms of 
relocating detainees that have been cleared for release from 
Guantanamo. I am sure some of you are aware that Mr. 
Rohrabacher and I have had a number of hearings on 22 Chinese 
Muslims from Northwestern China who are Uighurs and where 
because of our obligations under the Convention Against Torture 
and given the history of the Chinese Communist Government vis-
a-vis the Uighurs we find ourselves in a position where we 
cannot legally by virtue of that treaty and I would suggest 
morally return them to Communist China where there is a 
likelihood that they would be tortured and even maybe killed. 
So these are tough issues that have to be worked out.
    I yield back.
    Mr. Poe. Thank you, Mr. Chairman.
    So, Dr. Katzman, if you were a resident at Ashraf you would 
be nervous about your future. What is your opinion of not the 
Iraqi Government, but the Iraqi people's kind of sense about 
Camp Ashraf? Can you kind of give me something what the people 
are thinking?
    Mr. Katzman. I would say basically the Shiite Muslims are 
probably almost certainly more opposed to the Ashraf staying 
there, and Sunni Arabs are considered somewhat more welcoming 
and less inclined to try to ask them to leave.
    Mr. Poe. All right. Either one of the other two witnesses 
want to weigh in on that?
    Mr. Rohrabacher. Would the gentleman yield for a moment?
    Mr. Poe. Of course.
    Mr. Rohrabacher. Seeing that we do have someone who is 
representing the Kurdish Regional Government here on our panel, 
might I suggest that one alternative that perhaps hasn't been 
examined is the possibility of moving Camp Ashraf into the 
Kurdish regional area rather than where it is and that might be 
acceptable as compared to leaving them where they are at or 
repatriating them to Iran?
    Just a thought. The regional government might think about 
that and perhaps make an offer in that regard.
    Mr. Rademaker. Mr. Rohrabacher, this is the first time I 
have heard such a suggestion. I will pass it on to others who 
might be interested.
    It is true that the Kurdish region has served as something 
of a refuge for other groups in Iraq that have worried for 
their safety in the southern regions of the country. I think 
there is a practical dimension here with Camp Ashraf, which is 
that whoever finds themselves with these people in their midst 
will probably have a serious diplomatic problem with Iran, and 
I think that is true for the government in Baghdad today, and 
it would be true of any government that----
    Mr. Rohrabacher. It may be easier. The Shiite population of 
the Kurdish regional area is what?
    Mr. Rademaker. I can't give you the exact percentages. It 
is relatively small.
    Mr. Rohrabacher. All right. Thank you very much.
    Mr. Katzman, would you like to comment on that?
    Mr. Katzman. Sir, the Kurds blame the Ashraf residents for 
cooperation in Saddam's repression of the Kurds after the 1991 
war when there was a Kurdish uprising. They blame the group for 
helping Saddam put down the Kurdish uprising, so I would say 
the chances of them accepting that are very, very slim to none.
    Mr. Rohrabacher. Well, thank you for putting that in a 
historical perspective.
    Mr. Poe. Reclaiming my time, I do yield back to the 
chairman.
    Mr. Delahunt. Well, I thank the gentleman for that rather 
interesting discussion.
    Let me thank the panel for their testimony. It was, as 
always, informative. The formal hearing of today's proceedings 
has ended, but we are not finished because shortly we will 
welcome and are honored to have with us two of our fellow 
legislators from the Iraqi Parliament known as the Council of 
Representatives, former Prime Minister Ayad Allawi and Saleh al 
Mutlaq, the leader of the National Dialogue Front.
    So we will recess for 3 or 4 minutes and then reconvene for 
the briefing.
    [Whereupon, at 11:43 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
